*

No.
31n %\jc

Supreme Court of tfje Unttefa H>tate£
Whole Woman’s Health,

et al.,

Petitioners,
v.
Austin Reeve Jackson, Judge, et al.,
Respondents.
On Petition for Writ of Certiorari to
the United States Court of Appeals
for the Fifth Circuit
MOTION TO EXPEDITE CONSIDERATION OF THE
PETITION FOR A WRIT OF CERTIORARI BEFORE JUDGMENT
AND TO EXPEDITE CONSIDERATION OF THIS MOTION
Pursuant to Supreme Court Rule 21, petitioners move for expedited
consideration of their petition for a writ of certiorari before judgment to the United
States Court of Appeals for the Fifth Circuit. That petition raises the important
question whether a state can insulate an unconstitutional state-law prohibition from
federal challenges—and thereby effectively deprive individuals of their constitutional
rights—by delegating to the general public the authority to enforce the prohibition.
The petition urges the Court to grant certiorari before judgment under Supreme
Court Rule 11 because of the urgency of the harm to residents of Texas and
neighboring States, because the court of appeals has already made clear that it will
not provide relief, and because the law at issue is patently unconstitutional.
Given the pressing need for prompt resolution of the question presented,
Petitioners respectfully request that the Court direct Respondents to file an

1

opposition to the petition by October 12, 2021, which would enable this Court to
consider the petition at its conference on October 29, 2021. Petitioners also move for
this Court to order Respondents to file any opposition to this motion by Tuesday,
September 28, 2021. Petitioners further request that if the petition is granted, a
briefing schedule be set that would allow for oral argument during the Court’s
December sitting.

BACKGROUND
The State of Texas adopted a law banning abortion at approximately six weeks
of pregnancy—indisputably months before viability, and before many people even
realize they are pregnant. Senate Bill 8, 87th Leg., Reg. Sess. (Tex. 2021) (“S.B. 8” or
the “Act”). In a deliberate effort to shield this unconstitutional law from a pre­
enforcement challenge in federal court, the State barred executive-branch officials—
such as local prosecutors or the health department—from enforcing it directly, S.B. 8
§ 3 (adding Tex. Health & Safety Code §§ 171.207(a), 171.208(a)), and instead
delegated enforcement to the general public via private civil actions.
S.B. 8 authorizes “[a]ny person” to bring a civil-enforcement action in state
court against anyone alleged to have (1) provided an abortion that violates the ban,
(2) engaged in conduct that “aids or abets” an abortion that violates the ban
(regardless of whether they knew or had any reason to know that the abortion they
assisted was unlawful under S.B. 8), or (3) intended to do any of those things. S.B. 8
§ 3 (adding Tex. Health & Safety Code § 171.208(a), (e)(1)). The law does not require

2

that the claimant have any connection to the person sued or be injured by the abortion
in any way. Ibid.
When an S.B. 8 claimant demonstrates a “violation” of the Act, the state court
is required to issue an injunction to prevent further prohibited abortions from being
performed, aided, or abetted.

S.B. 8 § 3 (adding Tex. Health & Safety Code

§ 171.208(b)(1)). In addition, the court must award the person who initiated the
enforcement action a minimum bounty (there is no statutory maximum) of $10,000
per abortion, plus costs and attorney’s fees, payable by the person sued. S.B. 8 § 3
(adding Tex. Health & Safety Code § 171.208(b)(2)-(3)).
Petitioners filed this pre-enforcement challenge on July 13 seeking to block
S.B. 8 in advance of its September 1 effective date. Petitioners named as putative
defendant classes the government officials integral to S.B. 8’s private-enforcement
mechanism: (1) the clerks of the courts in which S.B. 8 enforcement actions are
brought, represented by Respondent Penny Clarkston, and (2) the judges of those
courts, represented by Respondent Judge Austin Reeve Jackson. Pet. App. 3a-4a,
15a. Petitioners also sued Respondent Ken Paxton, alleging that, as the Attorney
General of Texas and Texas’s chief law-enforcement officer, he is a proper defendant
in a challenge to this state law.

Petitioners acknowledged, however, that this

argument with respect to Attorney General Paxton is currently foreclosed by Fifth
Circuit precedent. D.Ct. Dkt. 1 at 20 n.5; D.Ct. Dkt. 19 at 21 n.4. Additionally,
Petitioners sued Attorney General Paxton and certain state licensing officials on the
ground that they can enforce S.B. 8 indirectly through other laws that are triggered

3

by violations of S.B. 8. Pet. App. 11a—12a, 15a—16a. Petitioners also named as a
defendant Respondent Mark Lee Dickson, a private party authorized to enforce S.B.
8 who has credibly threatened to sue Petitioners who violate the Act. Pet. App. 16a.
On August 25, the district court denied Respondents’ motions to dismiss,
concluding that petitioners have standing to bring their claims and that the claims
against the government-official Respondents fit within the exception to sovereign
immunity recognized in Ex parte Young, 209 U.S. 123 (1908). Pet. App. la-68a.
Respondents appealed the same day. Respondents moved for a stay of proceedings,
arguing that an appeal of a denial of sovereign immunity divests the district court of
jurisdiction to resolve claims subject to the immunity defense. On August 27, the
district court stayed the case as to the government officials but denied the stay motion
as to respondent Dickson, who—as a private defendant—had not asserted sovereign
immunity. Pet. App. 73a—75a. The court thus ordered the hearing on Petitioners’
fully briefed motion for a preliminary injunction, which had been previously
scheduled for August 30, to proceed as to Respondent Dickson.
On August 27, the Fifth Circuit entered a temporary administrative stay of all
district-court proceedings, including the preliminary-injunction hearing, and also
denied Petitioners’ emergency motion to expedite the appeal. Pet. App. 79a. On
August 29, the court of appeals denied Petitioners’ emergency motions for an
injunction pending appeal and to vacate the stays of the district-court proceedings or,
in the alternative, to vacate the district court’s denial of the motions to dismiss and
remand. Pet. App. 82a.

4

On August 30, Petitioners submitted an emergency application to Justice Alito
seeking, among other things, an injunction to preserve the status quo and prevent
the irreparable harm that would ensue once S.B. 8 took effect. The Court denied the
application on September 1, stating that petitioners had “raised serious questions
regarding the constitutionality of S.B. 8,” but that injunctive relief was not warranted
at that time because of “complex and novel antecedent procedural questions.” Whole
Women’s Health v. Jackson, No. 21A24, slip op. at 1 (Sept. 1, 2021).
S.B. 8 took effect on September 1. Although S.B. 8 unabashedly defies this
Court’s precedents, abortion providers—faced with the threat of unlimited lawsuits
from the general populace and the prospect of ruinous liability if they violate the
ban—have been forced to comply. As a result, abortion access across Texas has been
decimated. Texans with means must now travel hundreds of miles each way to other
States during a pandemic, just to exercise a clearly established federal right. The
surge of Texans seeking out-of-state appointments for this time-sensitive medical
care is causing backlogs in those States, delaying abortions by weeks for Texans and
non-Texans alike. Many Texans, however, lack the financial means to travel out of
state or are unable to secure childcare or the necessary time off work to do so. These
individuals must carry pregnancies to term and go through labor and delivery against
their will or seek ways to induce an abortion without medical assistance, as reports
now suggest many more Texans are doing.
The court of appeals maintained its administrative stay of the district-court
proceedings until September 10, when it issued a published opinion denying

5

Petitioners’ motion to dismiss Dickson’s appeal and granting Dickson’s motion to stay
the district-court proceedings. Although the court also ordered that the appeal be
expedited, Pet. App. 105a, briefing will not even begin until mid-October, and no
argument will be heard before December.
In its opinion, the Fifth Circuit explained that it previously denied Petitioners’
emergency motion for an injunction pending appeal because Petitioners’ claims
against Texas clerks and judges are “specious” and “absurd.” Pet. App. 86a, 96a, 97a.
The court declared that none of the state officials are “amenable to suit under Ex
parte Young, 209 U.S. 123 (1908),” and that the jurisdictional issues in Dickson’s
appeal are “inextricably intertwined” with those in the state officials’ appeal. Pet.
App. 86a, 104a.
Contemporaneously with this motion, Petitioners have filed a petition for a
writ of certiorari before judgment to the United States Court of Appeals for the Fifth
Circuit. They ask this Court to determine whether a State can insulate from federalcourt review a law that prohibits the exercise of a constitutional right by delegating
to the general public the authority to enforce that prohibition through civil actions.
ARGUMENT
For the same reasons that Petitioners have filed a petition seeking certiorari
before judgment, they request expedited consideration of that petition.

Texas

intentionally outsourced enforcement of S.B. 8’s blatantly unconstitutional six-week
abortion ban “to the populace at large” as a ploy to “insulate the State from
responsibility” for enacting a law that violates a clearly established federal right. No.

6

21A24, slip op. at 2 (Roberts, C.J., dissenting). Resolution of the question “whether
a state can avoid responsibility for its laws in such a manner,” ibid., is of the utmost
public importance and should not be delayed.
Every day that the Court does not confirm that prospective injunctive relief is
available to block S.B. 8’s private enforcement mechanism is a day that Texas has
succeeded in defying this Court’s clearly established precedent and stripped Texans
of a federal constitutional right. As a result, those with the means to do so are being
forced to travel hundreds of miles out of State to exercise that federal right. Indeed,
because abortion clinics in neighboring States cannot accommodate the surge of
Texas patients, many Texans are being forced to travel nearly a thousand miles or
more, each way, to other States. See United States v. Texas, No. 21-cv-00796 (W.D.
Tex., Sept. 15, 2021), Dkt. 8-6, Decl. of Rebecca Tong If If 12—13, 21—22, 28. Many
patients, including victims of rape, incest, and domestic violence, can make these
journeys only at great personal expense and hardship. See, e.g., id. Dkt. 8-9, Decl. of
Joshua Yap If 19 (describing Texas woman who drove through the night to Oklahoma
for a morning appointment and then drove back the same day), If 22 (describing
“Texas minor who had been raped by a family member” and endured “a 7- to 8-hour
drive” each way to Oklahoma); id. Dkt. 8-7, Decl. of Vicki Cowart If 10 (describing
Texas woman facing violence at the hands of her abusive husband and attempting to
“scrape together funds” by “selling personal items” to afford an “out-of-state trip”), Tf
12 (describing Texas woman who “drove alone out and back to her appointment [in
New Mexico]—over 1000 miles round trip—because she didn’t have paid time off work

7

and couldn’t afford to miss the hours”); id. Dkt. 8-8, Decl. of Anna Rupani f 26
(describing Texas woman who “piled her children into her car and drove over 15 hours
overnight” to Kansas “rather than struggle to patch together the money needed for
air-fare and childcare”).
Still more pregnant Texans are simply unable to travel out of State for care,
and in most cases “will be forced to carry those pregnancies to term and face the
risks—medical and financial—attendant with childbirth.” Id. Dkt. 8-4, Decl. of Amy
Hagstrom Miller If 32. Others will attempt to take matters into their own hands. Id.
Dkt. 8-5, Decl. of Melaney A. Linton ]f 34 (describing a patient who reported taking
an “abortion tea” she found on the internet); Abby Vesoulis, How Texas’ Abortion Ban
Will Lead to More At-Home Abortions, Time (Sept. 21, 2021) (visits to online resource
for accessing abortion pills went from 500 to 25,000 daily), https://time.com/6099921/
texas-self-managed-abortions/.
These harms are spilling over to residents of other States. Patients from Texas
now take up about two-thirds of appointments at one of the few abortion clinics in
Oklahoma, and about half of the appointments at one of the few Kansas clinics.
United States v. Texas, Dkt. 8-6, Tong Decl.

11, 20. As a result, the Oklahoma

clinic is having to schedule appointments three weeks out, a significant delay for a
time-sensitive medical procedure. Id. If 13. Inevitably, this means first-trimester
abortion patients across multiple States are now being delayed until later in
pregnancy to obtain abortion care, with no end to these delays in sight. Even a
herculean effort to increase capacity in other States could not accommodate the influx

8

of patients attempting to escape Texas’s extreme abortion ban. Id. Dkt. 8-7, Cowart
Decl. f 18 (55,966 abortions in Texas in 2019, compared to 2,735 in New Mexico in
2019 and 10,368 in Colorado in 2020); ibid. Dkt. 8-6, Tong Decl. ft 32-33 (describing
difficulties in hiring physicians and staff to meet increased demand).
The law is also harming clinic staff and physicians. Not only are they forced
to turn away patients desperate for care, id. Dkt. 8-5, Linton Decl. f 40, but they are
facing increased threats and harassment, id. f 37 (physician received messages
calling him a murderer and saying that he should be killed); id. Dkt. 8-2, Gilbert Decl.
f 44 (describing threats, including caller threatening to “tie up staff in chains and
torture them”); see also Pis.’ Mot. Summ. J., Declaration of Melaney A. Linton f 32,
Planned Parenthood of Greater Tex. Surgical Health Servs. v. Tex. Right to Life, No.
D-l-GN-21-004632 (Tex. Dist. Ct., Travis Cnty. Sept. 20, 2021) (describing a protestor
who set up a camera to record patients’ license plates and another who blocked a
health center driveway with his vehicle, requiring police response); id. Decl. of Polin
Barraza f 15 (describing caller who “demanded the last name of a [staff]
representative so that they could sue her”).
All of this is happening because of a clearly unconstitutional law. There is no
argument under existing precedent that a ban on abortion at six weeks is
constitutional, and that is true regardless of how it is enforced. Only this Court’s
immediate intervention will ensure that Texans’ federal constitutional rights are
protected from this brazen effort to subvert a constitutional right.

9

Moreover, Texas is not the only state that may use this private-enforcement
scheme to strip its residents of clearly established federal constitutional rights. The
drafters of S.B. 8 are being credited for their success in circumventing the
Constitution. See Michael S. Schmidt, Behind the Texas Abortion Law, a Persevering
Conservative Lawyer, N.Y. Times (Sept. 12, 2021), https://www.nytimes.com/2021/09/
12/us/politics/texasabortion-lawyer-jonathan-mitchell.html.

Already, legislation

modeled on S.B. 8 has been introduced in Florida, and other States are considering
it. H.B. 167, 2022 Sess. (Fla. 2021); Ewan Palmer, Florida and 5 other GOP-Led
States Consider Texas-Style Curbs on Abortion, Newsweek (Sept. 3, 2021) (noting that
lawmakers in Arkansas, Florida, Indiana, North Dakota, Mississippi, and South
Dakota are considering parallel laws), https://www.newsweek.com/republican-statestexas-style-restrictive-curbs-legislation-abortion-florida-1625876. Nor is there any
reason to think that this scheme will be limited to abortion bans. It could just as
easily be used by other States and municipalities with respect to other rights they
disfavor.
The gravity of the circumstances and the paramount importance of the
question presented warrant this Court’s urgent intervention.
For these reasons, Petitioners move the Court to adopt a certiorari briefing
schedule that would require Respondents to file a response by October 12, 2021. That
deadline provides Respondents nearly three weeks to file a brief in opposition; in
contrast, Petitioners now submit their petition less than two weeks after issuance of
the Fifth Circuit’s opinion granting the motion to stay and one day after the Fifth

10

Circuit made clear it would not even take up the full appeal until December. The
proposed schedule would allow the Court to consider the petition at its October 29
conference. Through this motion, petitioners waive the 14-day period provided by
this Court’s Rule 15.5 between the filing of a brief in opposition and the distribution
of the petition to the Court. And to facilitate expedition, petitioners also request that
this Court direct respondents to file any response to this motion by Tuesday,
September 28. Petitioners further request that if the petition is granted, a briefing
schedule be set that would allow for oral argument during the Court’s December
sitting.

11

September 23, 2021

Respectfully submitted,
/s/ Marc Hearron
Marc Hearron
Counsel of Record
Center for Reproductive Rights
1634 Eye St., NW, Ste. 600
Washington, DC 20006
(202) 524-5539
mhearron@reprorights.org

Julie A. Murray
Richard Muniz
Planned Parenthood Federation of
America
1110 Vermont Ave., NW, Ste. 300
Washington, DC 20005
Sarah Mac Dougall
Planned Parenthood Federation of
America
123 William St., 9th FI.
New York, NY 10038

Molly Duane
Melanie Fontes
Nicolas Rabat
Kirby Tyrrell
Center for Reproductive Rights
199 Water St., 22nd FI.
New York, NY 10038

Julia Kaye
Brigitte Amiri
Chelsea Tejada
American Civil Liberties Union
Foundation
125 Broad St., 18th FI.
New York, NY 10004

Jamie A. Levitt
J. Alexander Lawrence
Morrison & Foerster llp
250 W. 55th St.
New York, NY 10019

Lorie Chaiten
American Civil Liberties Union
Foundation
1640 North Sedgwick St.
Chicago, IL 60614

James R. Sigel
Morrison & Foerster llp
425 Market St.
San Francisco, CA 94105

David Cole
American Civil Liberties Union
Foundation
915 15th St., NW
Washington, DC 20005

Rupali Sharma
Lawyering Project
113 Bonnybriar Rd.
South Portland, ME 04106
Stephanie Toti
Lawyering Project
41 Schermerhorn St., No. 1056
Brooklyn, NY 11201

Adriana Pinon
David Donatti
Andre Segura
ACLU Foundation of Texas, Inc.
5225 Katy Fwy., Ste. 350
Houston, TX 77007

Counsel for Petitioners

12

i

I

